                     U.S. Department of Energy
                     Office of Inspector General
                     Office of Audit Services




Summary of Audit Report
The National Nuclear Security
Administration’s Management of
Classified Weapons Parts



This document provides a summary of an Audit Report that is not publicly releasable.
Public release is controlled pursuant to the Freedom of Information Act




DOE/IG-0772                                                       July 2007
This is ( I .sr~mmclryqf A ut fit Report IG-0 772, entitled "The Natiotoncl I Nucleclr Seczdritj'
Administr~rtion'sMunrcgement of Clnssrfieci Weapons Purls. " The complete report is not
crvc~il~rhle for p~dhlicdisclosu~e.


BACKGROUND

The Department of Energy's National Nuclear Security Administration (NNSA)
maintains the safety, security, reliability and perfomiance of the United States nuclear
weapons stockpile. While the weapons incorporate numerous nuclear and non-nuclear
components or parts, even the non-nuclear parts are dcsignated as classified since
disclosure of related information could damage national security. The Department's high
risk propcrty regulations stipulate that classified parts be accorded "lifecycle
accountability," including the use of site-wide inventory systems, regularly scheduled
inventories, and segregation of duties.

In light of the iniportance of safeguarding weapons parts in the post 9-1 1 environment,
we initiated this audit to determine wl~ethel-selected NNSA sites had adequate
accountability controls over classified weapons parts. The parts included in our review
did not contain special nuclear materials. Due to the sensitivity of the matters discussed,
details regarding our findings are provided in a non-public report.

RESULTS OF AUDIT

Two of the three sitcs we I-eviewed had not implemented adequate lifecycle controls and
did not track many classified non-nuclear weapons parts in their custody. Although some
site organizations maintained informal tracking systems, they

        Lacked fundamental controls such as regularly scheduled inventories and
        segregation of duties to ensure full and accurate accountability; and,

        Were not integrated and could not account for classified parts transferred between
        organizations.

In contrast, the third site provided lifecycle accountability to suppo~tits weapons
organization.

The two sites that had not provided adequate lifecycle accountability had assigned
responsibility for classified weapons parts to their security organizations. Security
officials at both sitcs acknowledged that, although they had certain physical safeguarding
responsibilities, they were not responsible for lifecycle accountability over property.
Property officials asserted that they were not responsible for the accountability over
classified parts since their property systems were unclassified.

During our review, the two sites could not readily account for or locate some of the items
included in our inventory sample. Accordingly, we made recommendations to improve
lifecycle accounlabili~yfor all classified weapons parts. Management did not agree with
the report's conclusions and recommendations. Management's specific comments and our
rebuttal are included in the non-public report.
